                  Performance Audit Report




The SBA Mismanaged Certain 8(a) Information Technology Contracts
                                                                                       REPORT TRANSMITTAL
                                                                                         REPORT NO. 13-08

DATE:           December 3, 2012

T O:            Jonathan I. Carver
                Chief Financial Officer

SUBJECT:        The SBA Mismanaged Certain 8(a) Information Technology Contracts

This report presents the results of our audit on The SBA’s Management of Information Technology
Contracts Awarded to Isika Technologies, Inc. Our audit objective was to determine whether the Small
Business Administration (SBA) effectively managed information technology (IT) contracts awarded to
Isika Technologies, Inc. (iTechnologies). We have incorporated the formal comments from the Office of
the Chief Financial Officer into this report.

Please provide your response to this report for each recommendation on the attached SBA Forms 1824,
Recommendation Action Sheet, by January 2, 2013.

Consistent with OMB Circular A-50, your response should include the corrective action(s) taken or
planned for each recommendation and the target date(s) for completion. If you disagree with the
recommendations, please fully explain the reasons for disagreement. Please include the legal basis for
disagreement based on interpretation of law, regulations, or the authority of officials to take or not to
take action. You may also propose alternative actions to those recommended that you believe would
better address the issues presented in this report.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our report
to the appropriate congressional committees with oversight and appropriate responsibility over the
Small Business Administration. We will also post this report on the Office of Inspector General website
for public dissemination.

We appreciate the courtesies and cooperation of the Office of the Chief Financial Officer, Office of the
Chief Acquisition Officer, and the SBA’s Suspension and Debarment Official during this audit. If you have
any questions concerning this report, please call me at (202) 205-7390 or Riccardo R. Buglisi, Director,
Business Development Programs Group, (202) 205-7489.

                                                   ***


/S/ original signed

John K. Needham
Assistant Inspector General for Auditing
                          The SBA Mismanaged Certain 8(a) Information Technology Contracts.




What OIG Audited                                       What OIG Found

This is the final Office of Inspector General (OIG)    The SBA did not adequately manage IT hardware and
report in a series of three audit reports related to   software contracts awarded to iTechnologies.
our audit of information technology (IT) hardware      Specifically, we determined that:
and software contracts awarded by the SBA to Isika
Technologies, Inc. (iTechnologies). The objective of       Contractor misrepresentations and contracting
this audit was to determine whether the SBA                personnel’s lack of due diligence caused the SBA
effectively managed IT contracts awarded to                to inappropriately award and administer 8(a)
iTechnologies. Specifically, we determined whether         contracts to iTechnologies.
the prime contractor and its subcontractor                 Contracting personnel at the SBA did not
performed contract requirements in accordance              properly administer the contracts as they did
with 8(a) program policies, guidance, and statutory        not conduct price reasonableness analyses for
requirements. We also determined whether the               contracts it awarded to iTechnologies.
SBA’s contracting personnel administered IT                Deficiencies within the SBA’s invoicing
contracts in accordance with federal and SBA               procedures established an environment ripe for
policies, guidance, and statutory requirements. To         improper payments.
achieve our audit objectives, we obtained and
analyzed the SBA’s contract files on iTechnologies,     As a result, the SBA overpaid for IT hardware and
conducted interviews, subpoenaed records, and           software by approximately $343,854 due to
reviewed pertinent policies, guidance, and statutory    multiple layers of markup. Further, the SBA
requirements.                                           improperly paid 100 percent of iTechnologies’
                                                        invoices.
OIG Recommendations and Agency Comments
                                                       Layers of Markup on iTechnologies Contracts
The OIG recommended a total of 15 specific actions.
We addressed 2 actions to the SBA’s Suspension and
Debarment official and 13 actions to the SBA’s Chief
Financial Officer.       On November 5, 2012,
management         submitted   formal    comments.
Management generally concurred with our findings                                         •Average of
and recommendations but emphasized that the                                               22 Percent          SBA
                                                                                          Markup
information technology contracts identified in the
report predated the transition of the SBA’s
acquisition function to the Office of the Chief
Financial Officer (OCFO).                                               •Second Layer   iTechnologies/
                                                                         of Markup           (TLE)
Actions Taken

As of report issuance, suspension and debarment
proceedings against iTechnologies were under
                                                        •First Layer    Manufacturer
review.     Further, in response to previous             of Markup      or Wholesaler
recommendations, the SBA’s Chief Financial Officer
terminated each of the contracts awarded to
iTechnologies.
Table of Contents
Introduction .................................................................................................................................................. 1
Results ........................................................................................................................................................... 3
   Finding: iTechnologies Subcontracted Nearly 100 Percent of the SBA’s Contract Requirements and
   Made Several Misrepresentations to the SBA .......................................................................................... 3
      Prime and Subcontractor Misrepresented their Relationship .............................................................. 4
      Examples of Contractor Misrepresentations during the Contract Performance Period ...................... 5
      Subcontractor Performed Nearly 100% of the SBA’s Contract Requirements ..................................... 5
      Conclusion ............................................................................................................................................. 7
      Management Actions Taken and In Process ......................................................................................... 7
      Recommendations ................................................................................................................................ 7
   Finding: SBA Contracting Personnel Did Not Establish Price Reasonableness for Contracts Awarded to
   iTechnologies ............................................................................................................................................ 8
      The SBA Did Not Comply with FAR Criteria for Establishing Price Reasonableness ............................. 8
      SBA’s Procurement Costs Increased with Additional Broker Markups............................................... 10
      Conclusion ........................................................................................................................................... 11
      Management Actions Taken and In Process ....................................................................................... 11
      Recommendations .............................................................................................................................. 11
   Finding: SBA’s Invoicing Procedures Contributed to Improper Payments ............................................ 12
      Examples of Ineffective Invoice Processes by Procurement Personnel ............................................. 13
      Examples of Ineffective Invoice Processes by the Denver Finance Center......................................... 14
      Conclusion ........................................................................................................................................... 16
      Recommendations .............................................................................................................................. 16
Agency Comments and Office of Inspector General Response .................................................................. 17
Actions Required ......................................................................................................................................... 24
Appendix I: Scope and Methodology ......................................................................................................... 25
   Use of Computer Processed Data ........................................................................................................... 25
   Prior Coverage......................................................................................................................................... 25
Appendix II: Contracts Awarded to iTechnologies ..................................................................................... 27
Appendix III: Indefinite Delivery Indefinite Quantity Contracts................................................................. 28
Appendix IV: Agency Comments ................................................................................................................. 29
         Introduction
         This report presents the results of our audit of the SBA’s management of information
         technology (IT) hardware and software contracts awarded to iTechnologies. Our first report
         addressed the planning and award of contracts to iTechnologies for the procurement of IT
         hardware and software.1 Our second report addressed the funding of IT contracts awarded to
         iTechnologies.2 For additional information on the results of these reports, please see
         Appendix I.

         Objectives

         The objective of this audit was to determine whether the SBA effectively managed IT contracts
         awarded to iTechnologies. Specifically, whether:

             1. The prime contractor and its subcontractor(s) performed contract requirements in
                accordance with 8(a) Business Development Program policies, guidance, and statutory
                requirements; and
             2. Contracting and Office of the Chief Information Officer (OCIO) personnel administered IT
                hardware and software contracts awarded to iTechnologies in accordance with SBA and
                federal policies, guidance, and statutory requirements.

         We conducted our audit between August 2010 and May 2012 in accordance with Government
         Auditing Standards prescribed by the Comptroller General of the United States. Those
         standards require that we plan and perform the audit to obtain sufficient, appropriate evidence
         to provide a reasonable basis for our findings and conclusions based on our audit objectives.
         We believe that the evidence obtained provides a reasonable basis for our findings and
         conclusions based on our audit objectives.

         Background

         The SBA oversees the 8(a) Business Development program. The purpose of the 8(a) program is
         to assist eligible small, disadvantaged businesses compete in the American economy through
         business development. Participants in the 8(a) program undergo a screening process to be
         admitted to the program and receive, among other things, contracting preferences and business
         development advice while participating. One of these benefits includes the award of sole
         source contracts, which enable participants to receive federal contracts without competing
         amongst large businesses.

         Participants in the 8(a) program are required by federal regulations to perform certain
         percentages of work on any contract received through the program. This requirement, known
         as the limitation on subcontracting, is to protect the 8(a) program from fraud by ensuring
         contracts selected for the 8(a) program are performed by 8(a) participants. Absent the
         limitation on subcontracting, companies not participating in the 8(a) program could take

1
  SBA OIG Report Number 11-08, SBA’s Procurement of Information Technology Hardware and Software through
  Isika Technologies, Inc., February 25, 2011
2
  SBA OIG Report Number 11-14, SBA’s Funding of Information Technology Contracts Awarded to Isika
  Technologies, Inc., June 2, 2011

                                                          1
            advantage of preferential opportunities, which may deny those same development
            opportunities to legitimate program participants. These preferential opportunities may include
            federal set-aside contracts.

            An Indefinite Delivery/Indefinite Quantity (IDIQ) contract is appropriate for procuring supplies
            and services when the government anticipates recurring requirements but cannot determine
            the precise quantities that it will need within a specific period. It establishes a minimum
            quantity or value of supplies and services to be purchased and may establish a maximum as
            well.3 Contracting officers then issue task or delivery orders against the IDIQ contract to
            purchase supplies and services that fulfill the government’s needs at a particular time.
            The IDIQ contracts discussed in this audit are of the indefinite-quantity type. A Blanket
            Purchase Agreement (BPA) is similar to an IDIQ contract in that it allows the government to
            order supplies and services when there are a variety of similar products required.
            The difference being that the exact items and quantities are unknown.

            iTechnologies, an 8(a) firm, established a prime and subcontractor relationship with The Look
            Enterprises (TLE) to obtain contracting opportunities through the SBA’s 8(a) Business
            Development Program.4 Through this relationship, iTechnologies and TLE submitted a proposal
            to the SBA, which awarded a series of sole-source 8(a) contracts to iTechnologies.
            Specifically, during fiscal year 2009 through 2011, the SBA awarded two IDIQ contracts, a BPA,
            and six purchase order contracts totaling over $7.6 million to iTechnologies for the procurement
            of IT hardware and software. Prior to receiving these contract awards, iTechnologies’ focus had
            been on IT consulting, rather than IT hardware and software procurement. These contracts are
            listed in the table, below:

            Table 1 Contracts Awarded to iTechnologies

             Award Date           Contract Vehicle          Contract Number                Initial          Contract Value
                                                                                          Contract            Including
                                                                                           Value            Modifications
         09/21/2009               IDIQ                    SBAHQ-09-D-0009                $ 5,000,000           $ 4,070,480
         12/09/2009               IDIQ                    SBAHQ-10-D-0001                  2,000,000              2,000,000
         02/18/2010               BPA                     SBAHQ-10-A-0001                  1,372,260              1,372,260
         03/11/2010               Purchase Order          SBAHQ-10-M-0111                      76,369                76,369
         03/19/2010               Purchase Order          SBAHQ-10-M-0118                      16,198                16,198
         03/19/2010               Purchase Order          SBAHQ-10-M-0119                      11,847                11,847
         04/05/2010               Purchase Order          SBAHQ-10-M-0130                      40,067                40,067
         04/10/2010               Purchase Order          SBAHQ-10-M-0135                       3,287                 3,287
         01/20/2011               Purchase Order          SBAHQ-11-M-0065                      23,694                23,694
                                                                     TOTAL:              $ 8,543,722           $ 7,614,202

            Note: While the contract value for all contracts and BPA’s reached $7.6 million, the SBA obligated only $3.1 million
            against these contracts. In response to Report Number 11-14, Small Business Administration’s Funding of
            Information Technology Contracts Awarded to Isika Technologies, Inc., the SBA terminated all contracts to
            iTechnologies before the SBA reached the contract ceiling.


3
    See Appendix III for additional information on IDIQ contracts.
4
    The contract proposal identified iTechnologies as the prime contractor with TLE served as its subcontractor.

                                                                  2
            Nature of Limited or Omitted Information

            We did not omit information due to confidentiality or sensitivity, nor were there limitations to
            information in this audit.

            Review of Internal Controls

            The SBA’s Standard Operating Procedures5 (SOPs) provide guidance on the implementation of
            internal control systems. The Office of Management and Budget (OMB) Circular A-123,
            Management’s Responsibility for Internal Control requires agency managers to continuously
            monitor and improve the effectiveness of internal controls. The OMB Memorandum for Chief
            Acquisition Officers, Conducting Acquisition and Conducting Acquisition Assessments under
            OMB Circular A-123, provides a required approach for conducting acquisition reviews under this
            guidance. However, SBA management has not conducted an internal control review of its
            acquisition function since fiscal year (FY) 2007. During our review, we identified significant
            internal control deficiencies related to SBA’s contract administration and payment process.
            Implementing the recommendations in this report should improve SBA’s contract administration
            and payment controls.

            Results

              Finding: iTechnologies Subcontracted Nearly 100 Percent of the SBA’s Contract
              Requirements and Made Several Misrepresentations to the SBA

            The president of iTechnologies and personnel from The Look Enterprises (TLE) knowingly
            misrepresented their prime and subcontractor relationship throughout the award and
            performance phases of 8(a) contracts with the SBA. For example, iTechnologies falsely claimed
            that it possessed the necessary relationships with vendors, manufacturers, and suppliers to
            fulfill the SBA contract requirements. iTechnologies also violated 8(a) program rules for
            subcontracting by allowing its subcontractor, TLE, to perform nearly 100 percent of the contract
            requirements. The firms’ misrepresentations occurred because iTechnologies authorized TLE to
            use its status as an 8(a) firm to obtain nine contracting vehicles for which it did not qualify.
            The SBA’s contracting personnel also did not perform due diligence in reviewing iTechnologies’
            proposal and its ability to perform the contract requirements. Moreover, SBA contracting
            personnel did not adequately monitor contractor performance on its contracts awarded to
            iTechnologies. As a result, the SBA paid $3.3 million to TLE, a non-8(a) program
            participant;however, iTechnologies’ received only $32,000, according to President and Chief
            Executive Officer, Mr. Philip Isika.

            According to the Federal Acquisition Regulations (FAR), misrepresentations through false
            statements and falsified documentation are serious offenses and serve as grounds for debarring
            the contractor.6 For example, it is illegal for a Government contractor to submit false
            statements and misrepresent the size or ability of its firm to perform the requirements of a

5
    SBA SOP 00 02 2: Internal Control Systems
6
    FAR 9.406-2(a)(3), Debarment, Suspension, and Ineligibility

                                                                  3
         government contract. In addition, for service contracts, the Code of Federal Regulations (CFR)
         states that an 8(a) contractor must perform at least 50 percent of the cost of the contract
         incurred for personnel with its own employees.7 Further, the FAR specifies that “Government
         business shall be conducted in a manner above reproach,8” and “Government contractors must
         conduct themselves with the highest degree of integrity and honesty.9”

         Prime and Subcontractor Misrepresented their Relationship

         iTechnologies and TLE made false statements to the SBA that resulted in 8(a) set-aside contract
         awards to iTechnologies. The firms’ misrepresentations occurred because iTechnologies
         authorized TLE to use its status as an 8(a) firm to obtain nine contracting vehicles for which it did
         not qualify. In addition, iTechnologies falsely claimed that it possessed the necessary
         relationships with vendors, manufacturers, and suppliers to fulfill SBA’s contract requirements.
         As a result, the SBA awarded $7.6 million in contracts to iTechnologies that were passed-
         through to TLE, a non-8(a) program participant.

         According to Mr. Isika, TLE approached him regarding an SBA requirement to procure IT
         hardware and software that was set-aside for 8(a), Historically Underutilized Business Zone
         (HUBZone), Service Disabled Veteran, or other SBA priority status vendors. The Look Enterprises
         proposed teaming with iTechnologies to obtain this contract award as iTechnologies was an 8(a)
         participant and therefore eligible for the contract award. According to Mr. Isika, TLE prepared
         the statement of work and submitted the proposal to the SBA without Mr. Isika performing a
         final review of the proposal. Our review of the proposal and responses to SBA’s clarification
         questions found numerous false statements, such as the size of both companies, the companies’
         roles in performing the contract, and prior work history. The proposal also stated, “There is
         absolutely no adverse impact on our ability to perform the requirement of this contract if The
         Look Enterprises does not enter into a teaming agreement with us.” These misrepresentations
         were presented as clarifications to the statement of work, which was used by the contracting
         officer to determine the contractor’s ability to perform the contract requirements.

         iTechnologies did not possess the necessary relationships with vendors, manufacturers, and
         suppliers to fulfill the SBA’s contract requirements. By stating that it would serve as the prime
         contractor and perform the majority of work to meet the SBA’s contract requirements,
         iTechnologies misrepresented the prime and subcontractor relationship between iTechnologies
         and TLE. During OIG interviews, Mr. Isika admitted that iTechnologies’ served as a
         “pass-through” to TLE. Mr. Isika explained that TLE did not qualify to receive these awards
         because TLE did not have an 8(a) certification status, and iTechnologies did not possess the
         working relationships with vendors, manufactures, and suppliers necessary to execute SBA’s
         contract requirements.




7
  CFR Title 13, Part 125, Section 125.6(a)(1), Prime Contractor Performance Requirements
8
  FAR Subpart 3.101-1, Standards of Conduct – General
9
  FAR Subpart 3.1002, Contractor Code of Business Ethics and Conduct – Policy


                                                              4
Examples of Contractor Misrepresentations during the Contract Performance Period

A contract performance period begins from the date of the award of the contract to the end of
the contract period. For purposes of this audit, we examined actions occurring between
September 2009 and January 2011. See Appendix II for additional contract action dates.

Mr. Isika admitted that his original intention when entering into the subcontracting
arrangement with TLE was initially to rely upon TLE to order goods for the SBA.
Once iTechnologies hired additional staff, Mr. Isika intended to transition the ordering function
in-house. However, he stated that it was not cost-effective for iTechnologies to hire the
personnel necessary to meet the SBA’s contract requirements because profit margins were low.
Rather than being forthcoming with the SBA, iTechnologies and TLE concealed iTechnologies’
inability to perform the work required by its contracts with the SBA. Instead, iTechnologies
permitted TLE to perform nearly 100 percent of the work required of a prime contractor, and
both firms perpetuated their practice of misrepresenting which firm would perform the contract
work. Recognizing the seriousness of iTechnologies’ and TLE’s false statements and
misrepresentations, we recommended that the SBA initiate debarment proceeding against both
companies.

Throughout the contract performance period, TLE personnel continued to perform the work
required to meet SBA’s contract requirements, which included:

        leading the kick-off meeting held with the SBA;
        providing price quotes to SBA personnel;
        accepting orders from the SBA;
        processing orders through its relationships with vendors, manufacturers, and suppliers;
        submitting invoices to the SBA; and
        paying its vendors, manufacturers, and suppliers for products procured by the SBA.

Personnel from TLE continued to represent themselves as employees of iTechnologies,
throughout the course of the OIG’s audit. For example, during the audit team’s first interview
with Mr. Selmon, president of TLE, he introduced himself as the Senior Accounts Manager for
iTechnologies. Similarly, TLE’s secretary answered her TLE business telephone number by
thanking the caller for calling iTechnologies. As the audit progressed, Mr. Selmon changed his
position by stating he represented TLE instead of iTechnologies.

Subcontractor Performed Nearly 100% of the SBA’s Contract Requirements

iTechnologies violated 8(a) program rules and federal regulations for subcontracting by allowing
its subcontractor, TLE, to perform nearly 100 percent of its contract requirements. As a result,
the SBA paid iTechnologies $3.3 million of which iTechnologies claimed to have only
kept $32 thousand with the remaining funds going to TLE, its subcontractor. This “pass-through”
to a non-8(a) participant occurred because SBA contracting personnel did not perform due




                                           5
          diligence10 in reviewing iTechnologies’ proposal, effectively assessing the firm’s ability to
          perform the contract requirements, or adequately monitoring contractor performance.

          In the case of government contracting, as outlined in the FAR Subpart 1.6, contracting officers
          are required to act with due diligence by “ensuring performance of all necessary actions for
          effective contracting, ensuring compliance with the terms of the contract, and safeguarding the
          interests of the United States in its contractual relationships and by performing other such
          duties.”

          Prior to awarding a contract, contracting personnel are required to only award contracts to
          responsible prospective contractors.11 However, contracting personnel at the SBA did not
          perform the necessary due diligence to effectively assess whether iTechnologies could comply
          with 8(a) program and contract requirements. This enabled iTechnologies and TLE to
          misrepresent the size and capabilities of iTechnologies without detection. For example, in its
          responses to the SBA’s Request for Proposal, iTechnologies claimed to employ 33 full and
          part-time employees, 7 of whom would be dedicated to supporting the SBA’s contract
          requirements. However, since its inception, iTechnologies never employed more than
          two people. Mr. Isika admitted that he was the sole employee of iTechnologies at the time TLE
          submitted iTechnologies’ proposal to the SBA and during the period of its contracts with the
          SBA. In addition, the proposal stated that iTechnologies’ past performance included a $3 million
          contract with the National Aeronautics and Space Administration. We performed a query of the
          Federal Procurement Data System – Next Generation (FPDS-NG) and were unable to locate the
          contract (NASA-RD-0021-07). Mr. Isika later confirmed that iTechnologies never contracted with
          NASA and added that, before these contracts with the SBA, iTechnologies had never acted as
          the prime contractor on a federal procurement.

          Despite iTechnologies’ misrepresentations, SBA contracting personnel had a duty to perform
          due diligence in reviewing iTechnologies’ proposal and responses to follow-up questions.
          Had SBA’s contracting personnel performed its due diligence, they could have determined that
          iTechnologies falsified its responses and could not execute the SBA’s contract requirements.
          Similarly, if SBA contracting personnel researched contract NASA-RD-0021-07, they could have
          discovered that this contract never existed. However, we found no evidence in the contracting
          files suggesting that contracting personnel performed this due diligence. Therefore, contracting
          personnel did not exclude iTechnologies from consideration based upon its false statements and
          misrepresentations.

          Sufficient contract monitoring by SBA contracting personnel could have deterred iTechnologies
          from permitting its subcontractor, TLE, to perform nearly 100 percent of the work necessary to
          meet SBA’s contract requirements. According to SBA personnel with knowledge of the
          iTechnologies contract, they believed that iTechnologies and TLE were the same company
          despite the statement of work that clearly delineated the companies’ prime and subcontractor
          relationship. Had SBA’s contracting personnel conducted a cursory review of TLE’s website they
          could have determined that all of their communication to procure hardware and software was


10
   Due diligence is defined as a measure of prudence, activity, or assiduity, as is properly to be expected from, and
   ordinarily exercised by, a reasonable and prudent man under the particular circumstances; not measured by any
   absolute standard, but depending on the relative facts of the special case.
11
   FAR Subpart 9.1, Responsible Prospective Contractors.

                                                                6
            with TLE officials.12 This practice violated federal regulations, which require a prime contractor
            to perform at least 50 percent of the contract work. However, since contracting personnel did
            not adequately monitor performance on the contracts awarded to iTechnologies the violation
            went undetected. For example, contracting personnel should have determined that TLE was
            performing nearly 100 percent of the work necessary to meet SBA’s contract requirements.
            As a result, the SBA allowed TLE to receive over $3.3 million under the IT hardware and software
            contracts awarded on a sole-source basis to iTechnologies, an 8(a) firm.

            Conclusion

            The SBA inappropriately awarded $7.6 million in IT contracts. Misrepresentations made by
            iTechnologies and TLE personnel violated federal law that went undetected since SBA
            contracting personnel did not perform adequate due diligence to determine whether
            iTechnologies was capable of performing the contract requirements. Had contracting personnel
            performed an adequate review of the contract proposal, it should have determined that the
            proposal included false statements regarding iTechnologies’ work history with the Federal
            government.

            Management Actions Taken and In Process

            We referred our case to the SBA’s Suspension and Debarment Official and recommended that
            he take action to debar iTechnologies from future contracting with any agency of the Executive
            Branch of the United States Government. As of report issuance, suspension and debarment
            proceedings against iTechnologies were under review.

            Recommendations

            We recommend that the SBA’s Suspension and Debarment Official:

            1. Take action to complete debarment proceedings for iTechnologies to prohibit future
               contracting with any agency of the Executive Branch of the United States Government.
            2. Initiate debarment proceedings for TLE and its officials to prohibit future contracting with
               any agency of the Executive Branch of the United States Government.

            We recommend that the SBA’s Chief Financial Officer:

            3. Establish and implement a procedure that aligns with the FAR to require contracting officers
               to determine whether prospective contractors are “responsible” prior to awarding a
               contract.




12
     TLE’s website included biographies with pictures of its key employees, including its president and vice
     president, James Selmon and Barbara Jean (BJ) Selmon, respectively.

                                                                  7
           Finding: SBA Contracting Personnel Did Not Establish Price Reasonableness for
           Contracts Awarded to iTechnologies

         Contracting personnel at the SBA did not ensure that the agency obtained IT hardware and
         software purchased through iTechnologies at fair and reasonable prices. This occurred because
         the fair market price was not established through competition, since contracts were awarded to
         iTechnologies on a sole-source basis. In addition, contracting officers did not perform price
         analyses; in failing to do so, the contracting officers inhibited the SBA’s ability to negotiate
         contract prices with iTechnologies. Further, iTechnologies acted as a broker13 and increased the
         price of each item that the SBA procured. Because contracting officers did not encourage
         competition, the SBA paid approximately $343,854 more than the fair and reasonable price that
         a qualified distributor should have charged. Moreover, SBA contracting officers did not fulfill
         their fundamental fiduciary responsibility to the government, thereby wasting taxpayer dollars.

         According to the FAR,14 contracting officers must purchase supplies from a responsible source at
         a fair and reasonable price. In establishing fair and reasonable pricing, the FAR prescribes a
         variety of techniques15 that contracting personnel may use to determine the fair market value16
         of commercial items,17 such as IT hardware and software. The FAR18 also states that adequate
         competition establishes fair and reasonable prices. When competition is not present, the FAR
         requires that contracting officers include the facts and rationale to justify deviating from full and
         open competition. This justification must include a determination by the contracting officer that
         the anticipated cost to the government will be fair and reasonable. In the absence of
         competition, the FAR19 requires the contracting officer must use price analyses to establish a fair
         and reasonable price.

         The FAR states that “the purpose of performing cost or price analyses is to develop a negotiation
         position that permits the contracting officer and the offeror an opportunity to reach agreement
         on a fair and reasonable price.20” The FAR also states that a contracting officer’s primary
         concern is the price the government will pay. 21 The contracting officer’s objective is to
         negotiate a contract of a type and with a price providing the contractor the greatest incentive
         for efficient and economical performance.

         The SBA Did Not Comply with FAR Criteria for Establishing Price Reasonableness

         In OIG Report Number 11-08, SBA’s Procurement of Information Technology Hardware and
         Software Through Isika Technologies, Inc., the OIG reported that the SBA’s requirement for IT

13
   A broker is a concern that adds no material value to an item being supplied to a procuring activity, or that does
   not take ownership, possession of, or handle the item being procured with its own equipment or facilities.
14
   FAR Subpart 15.402(a), Pricing policy.
15
   These techniques include but are not limited to historical pricing, parametric estimating methods, comparison of
   published prices, independent cost estimates, comparison through market research, and analyses of price
   information provided by the offeror.
16
   FAR Subpart 19.001 defines “fair market price” as a price based on reasonable costs under normal competitive
   conditions and not on lowest possible cost.
17
   FAR Subpart 15.403-3(c)(1), Requiring Information Other Than Cost or Pricing Data.
18
   FAR Subpart 15.404-1(b)(2)(i), Proposal Analysis Techniques.
19
   FAR Subpart 19.806, Pricing the 8(a) contract and FAR Subpart 19.807, Estimating fair market price.
20
   FAR Subpart 15.405(a), Price negotiation.
21
   FAR Subpart 15.405(b), Price negotiation.

                                                               8
         hardware and software did not qualify for an 8(a) sole-source procurement. We found that
         inadequate contract planning resulted in the SBA inappropriately awarding two IDIQ contracts,
         a BPA, and six purchase orders to iTechnologies on a sole-source basis.22 By awarding these
         contracts on a sole-source basis, the SBA prevented competition from establishing the fair
         market price.

         When awarding a contract, contracting officers are required to evaluate price in every source
         selection.23 However, iTechnologies’ proposal did not include any factors relating to price, and
         contracting personnel did not question the firm’s ability to provide a fair and reasonable price.
         For example, the SBA should have anticipated that it would pay inflated prices to iTechnologies
         because the proposal indicated that it would use third party suppliers.24 However, we found
         that the SBA did not conduct price analyses. As a result, contracting officers failed to protect
         taxpayer interests.

         The SBA awarded two IDIQ contracts and a BPA to iTechnologies, which designated
         iTechnologies as the exclusive provider of IT hardware and software to the SBA. When a
         contracting officer awards an IDIQ contract or BPA, such as those that SBA awarded to
         iTechnologies, the contracting officer must issue task orders to execute these contracting
         vehicles. Contracting officers executed 123 contract actions including task and delivery orders,
         BPA calls, purchase orders, and requisitions. We reviewed these contract actions25 and
         determined that for 54 of the actions, SBA contracting personnel did not perform analyses to
         determine price reasonableness. Specifically, the contract files for these 54 actions did not
         contain evidence that indicated that contracting personnel assessed price reasonableness.
         Similarly, the contract files for 68 additional contract actions contained unsupported statements
         within the Basis of Award claiming that contracting personnel had evaluated price
         reasonableness and determined:

                   Prices were fair and reasonable because the contractor’s proposed prices were
                   10 percent less than those of similar IT equipment on the General Services
                   Administration (GSA) schedules;
                   The contractor’s pricelist in the IDIQ contract was previously determined to contain fair
                   and reasonable prices; and
                   The prices of items listed on an existing BPA were previously determined to be fair and
                   reasonable.

         The contract files for these 68 contract actions, however, did not contain detailed narratives to
         substantiate these claims. For example, the contracting officer stated that the “proposed prices
         were 10 percent less than similar items on GSA schedules,” but support for these claims, such as
         screen shots of the GSA schedules, was not included. Contracting officers should have
         documented the comparable prices established within the GSA schedules. Contracting officers
         also claimed that the IDIQ pricelist was “previously determined to be fair and reasonable” but

22
   For additional details, please see Appendix II.
23
   FAR 15.304(c)(1), Source Selection: Evaluation factors and significant subfactors.
24
   iTechnologies stated they would rely upon third party suppliers such as, Ingram Micro, Tech Data, Sun Micro
   Systems, CDW, and other distributors to supply the SBA with IT hardware and software.
25
   The audit team reviewed 103 task and delivery orders, 5 BPA calls, 6 purchase orders, and 9 requisitions that
   were not placed on contract. However, SBA personnel were unable to provide any contracting documentation
   for purchase order SBAHQ-10-M-0111.

                                                              9
this statement was inaccurate. The IDIQ contracts did not include price lists, nor were prices
considered in awarding the contracts to iTechnologies. Similarly, contracting officers
inaccurately claimed that the prices of the items included in BPA SBAHQ-10-A-0001 were
previously determined to be fair and reasonable.

The SBA’s failure to perform price analyses inhibited the contracting officer’s ability to negotiate
fair and reasonable prices for contracts awarded to iTechnologies. Despite the FAR’s specificity,
the contracting officers did not negotiate prices for any of the contract actions executed in
relation to iTechnologies’ IT hardware and software provisioning. The contracting officers’
failure to analyze the proposed prices or to negotiate the prices resulted in the government
overpaying for goods ordered through iTechnologies. As such, contracting officers did not
perform their fundamental fiduciary responsibility to obtain supplies at fair and reasonable
prices.

SBA’s Procurement Costs Increased with Additional Broker Markups

The SBA unnecessarily paid approximately $343,854 to iTechnologies because of multiple layers
of markup. iTechnologies relied on its subcontractor, TLE, to place orders with distributors,
which led to excessive markups on many of the items that the SBA ordered. For additional
details, please see Figure 1, below.


Figure 1 Layers of Markup on iTechnologies Contracts


                                          •Average of 22
                                           Percent              SBA
                                           Markup




                          •Second Layer   iTechnologies/
                           of Markup
                                              (TLE)



        •First Layer of   Manufacturer
         Markup           or Wholesaler



We evaluated the prices that the SBA paid to iTechnologies. According to Mr. Isika, TLE placed
all orders on behalf of iTechnologies and was also responsible for paying each distributor.
Upon the OIG’s request, TLE provided us with complete or partial vendor invoices for 80 of the
123 contract actions that the audit team reviewed. While analyzing these 80 contract actions,
we calculated that the SBA unnecessarily paid excessive percentages of markup on individual
items that increased the cost of the contract actions by nearly $343,854, since each layer within
the procurement process added markup, thus increasing the SBA’s price for each item.
For example, the SBA procured labeling tape under IDIQ contract SBAHQ-10-D-0001, to which

                                            10
iTechnologies added a price markup of over 85 percent. Specifically, iTechnologies paid $8.81
per roll of labeling tape and charged the SBA $60.00 per roll of labeling tape, representing a
$51.19 markup per roll. Similar examples exist for higher end items, such as $43,900 in markups
charged to the SBA for laser printers. Had the agency properly planned and awarded its
contracts directly to qualified distributors the SBA could have saved approximately $343,854
that it unnecessarily paid to iTechnologies.

To demonstrate the magnitude of iTechnologies’ markups based on our analyses of the 80
contract actions, the OIG developed Table 2, which (1) identifies iTechnologies’ total profit
earned for each of its contracts with the SBA, (2) highlights the highest percentage of markup on
a single item under each contract, and (3) identifies the average percentage of markup charged
by iTechnologies under each of its contracts with the SBA.

Table 2 Analysis of 80 Contract Actions for Which Complete or Partial Invoices Were Provided

                                                      High              Average
   Contract Number           Excess Payment
                                                    Markup (%)         Markup (%)
     SBAHQ-09-D-0009                 $163,956             68.25              17.65
     SBAHQ-10-D-0001                  130,378             85.32              20.40
     SBAHQ-10-A-0001                   17,817             69.12              32.22
       Purchase Orders                  5,523             13.05              10.92
 Unrelated Requisitions                26,180             69.12              27.43
                 Total:              $343,854                                21.94

Conclusion

The SBA inappropriately awarded a series of sole-source contracts to iTechnologies for the
procurement of IT hardware and software. In the absence of competition, contracting officers
did not conduct price analyses or negotiate prices to be good stewards of taxpayer dollars.
Instead, the SBA accepted the prices submitted by iTechnologies without determining whether
the government received a fair and reasonable price for the goods it procured. As a result of
contracting officers’ ignoring their fiduciary responsibility, the contracts awarded to
iTechnologies resulted in additional charges to the government of $343,854.

Management Actions Taken and In Process

In OIG Report Number 11-08, we recommended that the Chief Financial Officer immediately
terminate IDIQ contracts SBAHQ-09-D-0009, SBAHQ-10-D-0001, and BPA SBAHQ-10-A-0001.
In response to our recommendations, SBA contracting personnel terminated these contracts.

Recommendations

We recommend that the Chief Financial Officer:

4. Demonstrate that SBA contracting personnel are proficient at conducting price analyses
   used to establish whether proposed prices are fair and reasonable and in accordance with
   FAR requirements.


                                             11
          5. Require contracting personnel to maintain all records used to establish a fair and reasonable
             price, consistent with FAR requirements.
          6. Establish and implement a procedure to verify routinely that contracting officers are
             documenting price analyses used to establish price reasonableness.


           Finding: SBA’s Invoicing Procedures Contributed to Improper Payments

          The SBA improperly paid 100 percent of invoices submitted under its contracts with
          iTechnologies, including invoices for goods the agency may not have received. This occurred
          because the SBA did not have sufficient internal controls in place to ensure the adequacy of its
          invoice approval process. Specifically, unauthorized and unidentified individuals approved
          iTechnologies’ invoices for payment. Similarly, payment personnel at the Denver Finance Center
          did not validate whether the signatories on iTechnologies’ invoices had authority to approve the
          invoices. For example, payment personnel routinely paid any invoice received as long as it
          displayed a signature. In addition, payment personnel did not obtain and review the required
          supporting documentation to substantiate that approved invoices were for goods and services
          that the SBA actually received. Further, the SBA’s procurement and accounting systems did not
          fully interface, which exposed the SBA to vulnerabilities to making improper payments.
          As a result, the SBA inappropriately paid over $180,000 directly to iTechnologies’ subcontractor,
          TLE, and overpaid iTechnologies by more than $12,000.

          According to the FAR, contracting officers have the authority to administer government
          contracts, which includes approving contractor invoices.26 The Code of Federal Regulations
          (CFR) states that only the contracting officer may delegate his or her duties to a Contracting
          Officer’s Technical Representative (COTR), and must do so via a written letter of delegation.27
          The FAR specifies that the contracting officer or an appropriately delegated COTR must
          determine whether an invoice is proper, prior to approval, by evaluating the ten elements of a
          proper invoice.28 Similarly, the FAR also requires that agencies support all invoice payments
          with a receiving report or any other documentation authorizing payment such as a government
          certified voucher.29

          According to the United States Code, certifying officers30 are personally accountable for verifying
          that invoice payments were legal, proper, and correct. Therefore, the certifying officers may be
          liable for reimbursing the Federal government for all payments that were illegal, improper, or
          incorrect.31 In addition, OMB requires agencies to publish a Corrective Action Plan for each
          root cause of improper payments for its programs and activities.32 Further, the OMB requires
          agency managers to continuously monitor and improve the effectiveness of internal controls
          associated with their programs.33


26
   FAR Subpart 1.602-1(a), Career Development, Contracting Authority, and Responsibilities: Contracting Officers.
27
   Title 48, Code of Federal Regulations (CFR) Subpart 2901.603-71, Contracting Officer’s Technical Representatives.
28
   FAR Subpart 32.905(a)-(b)(1), Payment Documentation and Process.
29
   FAR Subpart 32.905(c), Payment Documentation and Process.
30
   Certifying officers refer to Denver Finance Center personnel officially delegated to serve as certifying officers.
31
   Title 31 United States Code, Subchapter 3528, Responsibilities and relief from liability of certifying officials.
32
   OMB Circular A-136, Revised, Part II.58, IPIA Reporting Details, Subpart III, Corrective Actions.
33
   OMB Circular A-123, Revised, Part IV, Assessing Internal Control.

                                                               12
         Examples of Ineffective Invoice Processes by Procurement Personnel

         Deficiencies within SBA’s invoice review and payment processes at the procurement and
         payment levels, and its lack of internal controls, significantly contributed to the approval of
         $3.3 million in improper payments34 to iTechnologies. Federal regulations and formal guidance
         have established the requirements that agencies must follow throughout their invoicing and
         payment processes. However, the SBA did not have adequate internal guidance to implement
         the Federal regulations or controls in place to ensure consistency within its operations and
         compliance with the law.

         In general, the SBA’s invoice review and payment processes consisted of receiving an invoice,
         signing the invoice to signify approval, and forwarding the signed invoice to the Denver Finance
         Center for payment. These inadequate invoice processing procedures enabled both the
         contracting officer and unauthorized personnel to approve each of the 179 ineligible
         iTechnologies invoices. These unauthorized approvers included SBA personnel serving in the
         COTR35 capacity without written delegations from the contracting officer, unidentified
         individuals, and an SBA contractor. We determined that unauthorized personnel approved 28 of
         the 179 iTechnologies invoices, approximately 16 percent, valued at $301,851.54. Examples
         include:

                   Two individuals serving in the COTR capacity without delegated authority admitted to
                   approving iTechnologies’ invoices despite having never read the iTechnologies contract
                   or its associated task orders.
                   Three unidentifiable signatories approved iTechnologies invoices.
                   An SBA contractor approved one invoice that may have resulted in an overpayment of
                   $12,385.29 to iTechnologies.

         Contracting officers’ demonstrated a lack of due diligence by approving 151 of the 179 or 84
         percent of ineligible invoices. Had the SBA established adequate procedures, the invoice
         reviewer, at minimum, should have verified whether the contractor submitted a proper invoice.
         Similarly, the SBA should have had an invoice review process that required the approver to
         ensure the invoiced items were on the contract and matched contract requirements, and that
         the goods were received. Had these procedures been in place, the contracting officer should
         have withheld iTechnologies’ invoice approvals rather than forwarding them to the Denver
         Finance Center for payment.

         We determined that invoice approval personnel neglected to perform steps to ensure that
         the 179 iTechnologies invoices were appropriate or accurate prior to invoice approval.
         As a result, SBA personnel approved invoices that a proficient approving official should have
         determined were ineligible for payment such as:



34
   An improper payment is any payment that should not have been made or that is made in an incorrect amount
   under statutory, contractual, administrative, or other legally applicable requirements.
35
   Title 48, Code of Federal Regulations (CFR) Subpart 2901.603-71, Contracting Officer’s Technical Representatives,
   states that only the contracting officer cognizant of the contract action may delegate a COTR. In addition, a
   COTR delegation must be issued in a written letter of delegation informing the individual by name of his or her
   COTR authority, including a delegation of applicable limitations and responsibilities.

                                                               13
                     All 179 contained inaccurate vendor data;
                     145 or 81 percent did not contain the correct task order number;
                     59 or 33 percent were approved for payment prior to task order issuance;
                     13 were not authorized by a task order;
                     4 contained item quantities in excess of the task orders, which resulted in an
                     overpayment of $26,265.00 to iTechnologies;
                     3 included items that were invoiced at a higher rate than authorized by the contract,
                     which resulted in iTechnologies receiving $28,112.00 in excess profits;
                     2 were duplicative and resulted in an overpayment of $12,073.00 to iTechnologies; and
                     2 contained the name of TLE, iTechnologies’ subcontractor.

            The SBA’s 100 percent improper payment rate on these invoices represents a systemic problem
            in the agency’s invoicing and payment processes. In the Agency’s Financial Report for FY 2011,
            the SBA Administrator acknowledged that its contracting program was at significant risk of
            improper payments and estimated that its improper payment rate was 89 percent.
            The SBA’s invoice review and approval processes, coupled with contracting personnel’s inability
            to adhere to established guidance, created an environment susceptible to making improper
            payments.

            Examples of Ineffective Invoice Processes by the Denver Finance Center

            We determined that deficiencies within the Denver Finance Center’s invoice payment process
            and its lack of internal controls significantly contributed to the SBA’s $3.3 million in improper
            payments on iTechnologies’ invoices. According to payment personnel, they processed every
            invoice for payment that they received as long as it had a signature and a purchase order
            number without validating the approving authority of the signatory. If such a requirement
            existed, these personnel should have found that unauthorized individuals approved 28 of the
            179 iTechnologies invoices.

            Similarly, the SBA did not have a procedure in place to ensure that payment personnel only
            processed payments for invoices that included a receiving report. However, personnel at the
            Denver Finance Center processed 179 iTechnologies invoices for payment that did not include a
            receiving report to substantiate the receipt of goods. To mitigate the risk of paying invoices for
            items not received by agencies, the FAR requires that agencies support all invoice payments
            with a receiving report or any other documentation authorizing payment such as a government
            certified voucher.36

            We performed a limited inventory review37 of items procured under contracts awarded to
            iTechnologies to validate whether the SBA obtained a benefit from the $3.3 million in invoice
            payments made to iTechnologies. We determined that the SBA could not locate approximately
            17 of the 18 invoiced items identified in our limited review. Thus, the SBA could not validate
            whether it received from the product or service called for in its contracts with iTechnologies.



36
     FAR Subpart 32.905(c), Payment Documentation and Process
37
     The audit team performed an inventory review of 18 randomly selected items procured by the SBA under IDIQ
     contract SBAHQ-09-D-0009.

                                                              14
         Management should have ensured that finance specialists determined whether the 179
         iTechnologies’ invoices were proper and included the required receiving report or supporting
         documentation prior to processing invoice payments. A more thorough review by the finance
         specialists should have detected and prevented the following payment errors:

                   Payments totaling $188,934.00 that were made directly to iTechnologies’ subcontractor,
                   TLE;
                   $1,587,584.57 in payments that were sent to an unregistered bank account for 90 of
                   iTechnologies’ invoices;38
                   28 iTechnologies invoice payments that were approved by unauthorized contracting
                   personnel;
                   An overpayment of $12,073.00 that was made to iTechnologies; and
                   $267,943.50 in payments that were made on 22 of iTechnologies’ invoices prior to task
                   order issuance, which may have created an unauthorized commitment or potential
                   Antideficiency Act violation.

         Had adequate internal controls existed and certifying officials performed oversight, finance
         specialists at the Denver Finance Center should have rejected each of iTechnologies’ 179
         invoices that contracting personnel and unauthorized individuals39 had improperly approved.
         According to a division manager40 at the Denver Finance Center, the invoice payment process
         was vulnerable to improper payments due to known internal control weaknesses.

         Another weakness resulted from the SBA not fully interfacing its procurement system, the
         Procurement Information System for Management (PRISM41), and its accounting management
         system, Joint Administrative Accounting Management System (JAAMS42). Without fully
         interfacing PRISM and JAAMS, finance specialists at the Denver Finance Center processed
         payments manually using purchase order numbers rather than task order numbers.
         This exposed the SBA to vulnerabilities in making improper payments because there was no
         guarantee that the procured items were placed on contract. Similarly, the SBA potentially
         violated the Antideficiency Act because the contracting officer may not have obligated the funds
         necessary to cover the cost of goods and services not placed on contract. By fully interfacing
         information in PRISM and JAAMS, the SBA could significantly reduce its risk of future improper
         payments because the systems would automatically validate whether:

                   Contracts or task orders exist;
                   The purchase order numbers corresponds with a contract or task order number; and
                   Invoices correspond with both the purchase order numbers and the contract or task
                   order numbers.




38
   The unregistered account belonged to iTechnologies but since the account was unregistered it violated contract
   terms and conditions.
39
   See page 18 for a discussion on unidentified and unauthorized individuals approving iTechnologies’ invoices.
40
   The division manager was a position within the SBA’s Administrative Accounting Division.
41
   PRISM is the procurement system used by the SBA to maintain its contracting actions.
42
   JAAMS is the accounts payable system that the SBA uses to process invoice payments.

                                                              15
Conclusion

Deficiencies within the SBA’s internal controls for its invoice review and approval process
created an environment susceptible to significant improper payments. Safeguards were not in
place to ensure that contracting officers reviewed vendor invoices and only approved proper
invoices. Similarly, payment personnel failed to review vendor invoices and made payments
without knowing whether the signatory had authority to approve the invoice or obtaining the
necessary receiving reports to substantiate the receipt of goods. In addition, SBA management
ignored known vulnerabilities within its contracting and payment systems that placed the SBA at
high risk for making improper payments. Had SBA management taken action to address internal
control weaknesses, its personnel should have rejected each of iTechnologies $3.3 million in
invoices and withheld payments until iTechnologies’ invoices were proper and properly
approved.

Recommendations

We recommend that the Chief Financial Officer:

7. Conduct an internal control review of SBA’s acquisition function in compliance with
    OMB Circular A-123 and OMB Memorandum, Conducting Acquisition Assessments under
    OMB Circular A-123.
8. Based upon the SBA’s internal control review, update internal controls and implement
    procedures that are essential to an efficient, effective, and accountable acquisition process.
9. Conduct an internal control review of SBA’s Denver Finance Center in compliance with
    OMB Circular A-123 and include the results in the annual Agency Financial Report (AFR).
10. Update payment processing internal controls and implement procedures that are essential
    to an efficient, effective, and accountable acquisition process.
11. Recover $12,073 from iTechnologies for payments the contractor received in duplicate;
12. Establish and implement an invoice review processes that limits invoice review to
    contracting officers or individuals with appropriately delegated authority.
13. Establish and implement a procedure to provide payment personnel with a list of personnel
    authorized to approve invoices that should be updated at least quarterly and specific to the
    contracts that non-contracting officers are permitted to approve.
14. Establish and implement an invoice approval procedure that includes attaching and
    reviewing a receiving report to each invoice, prior to payment processing;
15. Establish and implement an automatic interface between PRISM and JAAMS to ensure that
    invoice payments are tied to contract numbers instead of purchase order numbers.




                                            16
Agency Comments and Office of Inspector General Response
On September 28, 2012, we provided a draft of this report to the SBA’s Office of the Chief
Financial Officer (OCFO) for comment. On November 5, 2012, the CFO submitted formal
comments, which are included in their entirety in Appendix IV. The agency provided four
technical comments on information contained in the draft report, as well as comments on each
of the fifteen recommended actions. Overall, the CFO concurred with our findings and
recommendations but emphasized that the information technology contracts identified in the
report predated the transition of the SBA’s acquisition function to the OCFO. In addition, the
CFO acknowledged that significant issues existed with these information technology contracts;
however, the CFO stated that his office learned from past errors and took steps to improve the
SBA’s acquisition process. We consider management’s comments to be responsive to 9
recommendations, partially responsive to 3 recommendations,and non-responsive to the
remaining 3 recommendations. A summary of management’s technical comments,
recommendation-specific comments, and our responses follows on the next page.




                                          17
Table 3 Agency Technical Comments and OIG Response
Comment
                        Draft Report                     Agency Comment                              OIG Response
Number
               Review of Internal Controls    According to the CFO, the SBA’s Office of    We consider management’s
               However, SBA management        Internal Control performed this review       comment to be non-responsive to
               has not conducted an           during May 2012 and presented its            the intent of this report. The
               internal control review of its assessment to the acquisition                OCFO’s Office of Internal Control
               acquisition function since     management team in October 2012.             performed a review. However, it
      1        fiscal year (FY) 2007.                                                      did not comply with requirements
                                                                                           established by the OMB in its
                                                                                           memorandum titled Conducting
                                                                                           Acquisition Assessments Under
                                                                                           OMB Circular A-123, dated
                                                                                           May 21, 2008.
               P. 12, Finding                   According to the CFO, he agreed with       We consider management’s
               Further, the SBA’s               this statement but emphasized that the     comment to be non-responsive to
               procurement and accounting       procurement and accounting systems         the intent of this report. Until the
               systems did not fully            are currently interfaced, except the       SBA fully interfaces its
               interface, which exposed the     commitment to obligation phase, which      procurement and accounting
     2         SBA to vulnerabilities to        remains a manual process.                  systems and discontinues its use
               making improper payments.                                                   of a manual process in the commit
                                                                                           to obligate phase, the SBA will
                                                                                           continue to expose itself to the
                                                                                           vulnerabilities of making improper
                                                                                           payments.
               P. 15, Examples of               The CFO explained that interfacing the     We consider management’s
               Ineffective Invoice              SBA’s procurement and accounting           comment to be non-responsive to
               Processes by the Denver          systems will be complete once the          the intent of this report. Since the
               Finance Center                   agency converts its commitment to          SBA did not fully integrate its
                                                obligation phase from a manual to          procurement and accounting
                                                electronically automated process. In       systems, the agency paid invoices
                                                addition, the CFO stated that the OIG’s    based on purchase order
                                                report did not explain how an automatic    numbers. Contracting personnel
     3
                                                interface between the procurement and      did not place these purchase
                                                accounting systems would reduce the        orders on contracts, which
                                                number of improper payments.               resulted in numerous
                                                According to the CFO, he believed          unauthorized commitments.
                                                ensuring that contract data is complete,   Similarly, weak internal controls in
                                                rather than interfacing these two          the contract writing and payment
                                                systems, would reduce the SBA’s            systems enabled the SBA to issue
                                                number of improper payments.               improper payments.
               P. 15, Examples of               The CFO stated that he disagreed with      We consider management’s
               Ineffective Invoice              this statement. According to the CFO,      comment to be non-responsive to
               Processes by the Denver          mentioning the potential of an             the intent of this report. The OIG
               Finance Center                   Antideficiency Act violation was           stands behind its statement that
               Similarly, the SBA potentially   redundant with a prior OIG report and      the SBA potentially violated the
               violated the Antideficiency      out of scope for this audit.               Antideficiency Act. The SBA’s
               Act because the contracting                                                 practice of issuing payments
               office may not have                                                         based on purchase order numbers
     4         obligated the funds                                                         rather than contracts resulted in
               necessary to cover the cost                                                 improper payments that may also
               of the foods and services not                                               have led to an Antideficiency Act
               placed on the contract.                                                     violation. The SBA has not taken
                                                                                           action on our previous
                                                                                           recommendation to determine
                                                                                           whether the SBA’s actions
                                                                                           resulted in an Antideficiency Act
                                                                                           violation.


                                                              18
Recommendation 1 – We recommend that the SBA’s Suspension and Debarment Official take
action to complete debarment proceedings for iTechnologies to prohibit future contracting with
any agency of the Executive Branch of the United States Government.

Agency Comments

Management neither concurred nor non-concurred with this recommendation. However, the
CFO stated that this matter is under review.

OIG Response

We consider management’s comments to be responsive to this recommendation.

Recommendation 2 – We recommend that the SBA’s Suspension and Debarment Official initiate
debarment proceedings for TLE and its officials to prohibit future contracting with any agency of
the Executive Branch of the United States Government.

Agency Comments

Management neither concurred nor non-concurred with this recommendation. However, the
CFO stated that this matter is under review.

OIG Response

We consider management’s comments to be responsive to this recommendation.

Recommendation 3 – We recommend that the SBA’s Chief Financial Officer establish and
implement a procedure that aligns with the FAR to require contracting officers to determine
whether prospective contractors are “responsible” prior to awarding a contract.

Agency Comments

Management concurred with this recommendation. Specifically, the CFO stated he agreed that
contracting officers should follow the FAR when determining whether a prospective contractor
is “responsible” prior to awarding a contract. However, the CFO emphasized that the
contracting officers associated with the award of these information technology contracts no
longer work for the SBA, and these actions occurred prior to the SBA transitioning the
procurement function to the OCFO. In addition, the SBA is rewriting its SOP and contracting
officer’s desk manual, which will establish a policy that defines the procedures a contracting
officer should take to determine whether an prospective contractor is “responsible” prior to
award.

OIG Response

We consider management’s comments to be responsive to this recommendation.




                                           19
Recommendation 4 – We recommend that the Chief Financial Officer demonstrate that SBA
contracting personnel are proficient at conducting price analyses used to establish whether
proposed prices are fair and reasonable and in accordance with FAR requirements.

Agency Comments

Management concurred with this recommendation. According to the CFO, contracting
personnel should conduct price analyses to establish whether proposed prices are fair and
reasonable and in accordance with FAR requirements. However, the CFO reiterated that the
contracting officers associated with these information technology contracts no longer work for
the SBA, and he emphasized that the OIG’s report did not highlight an ongoing problem with the
performance of price analyses.

OIG Response

We consider management’s comments to be partially responsive to this recommendation.
The CFO stated his concurrence that contracting personnel should conduct price analyses to
establish fair and reasonable prices. However, the CFO’s comments also imply that he does not
believe the SBA currently has a problem with its price reasonableness determinations.
Accordingly, the CFO did not identify a plan or his intention to ensure that contracting personnel
establish fair and reasonable prices. To comply with this recommendation, the CFO should have
SBA contracting personnel demonstrate proficiency at conducting price analyses in compliance
with the FAR.

Recommendation 5 – We recommend that the Chief Financial Officer require contracting
personnel to maintain all records used to establish a fair and reasonable price, consistent with
FAR requirements.

Agency Comments

Management neither concurred nor non-concurred with this recommendation. Instead, the
CFO requested that the OIG clarify this recommendation. The CFO stated that the contracting
officers associated with these information technology contracts no longer work for the SBA,
and he emphasized that the OIG’s report did not highlight an ongoing problem with the
establishment of fair and reasonable prices. In addition, the CFO referenced several FAR
citations and discussed the requirements for awarding 8(a) contracts. The CFO concluded that
the FAR does not require agencies to establish competition in order to make an 8(a) sole source
award at a fair market price.

OIG Response

We consider management’s comments to be non-responsive to this recommendation.
The CFO accurately stated that the contracting officers and management originally responsible
for these information technology contracts no longer work for the SBA. However, the SBA must
do more than merely hiring new staff to prevent the continuation or recurrence of previous
problems. While the CFO included several FAR citations, the CFO’s comments did not discuss
the policies or procedures used by SBA personnel to document their determinations of fair and
reasonable prices. The FAR requires contracting officers to purchase supplies from a responsible

                                            20
source at a fair and reasonable price, regardless of the vendor’s small business status.
Similarly, the FAR requires the head of each office performing contracting, contract
administration, or paying functions to maintain records of all contractual actions, which includes
price reasonableness determinations. The FAR explains that documentation within the
contracting files must be sufficient to constitute a complete history of the transactions. This
includes the following:

        Providing a complete background as a basis for informed decisions at each step in the
        acquisition process;
        Supporting actions taken;
        Providing information for reviews and investigations; and
        Furnishing essential facts in the event of litigation or congressional inquiries.

Recommendation 6 – We recommend that the Chief Financial Officer establish and implement a
procedure to verify routinely that contracting officers are documenting price analyses used to
establish price reasonableness.

Agency Comments

Management neither concurred nor non-concurred with this recommendation. The CFO stated
that the FAR requires contracting officers to maintain a contract file that includes the data and
information used to a establish price reasonableness determination. However, the FAR does not
specify the type of documentation that should support a price analysis. According to the CFO,
the SBA will revise its SOP and the contracting officer’s desk manual to provide guidance on the
data and information that the contracting officer should maintain to support their price
reasonableness determination.
OIG Response

We consider management’s comments to be responsive to this recommendation.

Recommendation 7 – We recommend that the Chief Financial Officer conduct an internal control
review of SBA’s acquisition function in compliance with OMB Circular A-123 and OMB
Memorandum, Conducting Acquisition Assessments under OMB Circular A-123.

Agency Comments

Management concurred with this recommendation. According to the CFO, a review of internal
controls was performed in compliance with OMB Circular A-123 during May 2012. The results of
this review were presented to the Acquisition Division in October 2012.

OIG Response

We consider management’s comments to be non-responsive to this recommendation.
The OCFO’s Office of Internal Controls performed an internal control review and provided its
results to the OIG in November 2012. However, the OCFO’s review did not comply with the
requirements established by the OMB in its memorandum titled Conducting Acquisition
Assessments under OMB Circular A-123, dated May 21, 2008. For example, the SBA did not
assess internal controls related to the four cornerstones: 1) organizational alignment and

                                           21
leadership, 2) policies and processes, 3) human capital, and 4) information management and
stewardship. The agency’s FY 2012 review was completed in accordance with OMB Circular A-
123, Appendix A: Internal Control over Financial Reporting, December 2 1, 2004.

Recommendation 8 – We recommend that the Chief Financial Officer based upon the SBA’s
internal control review, update internal controls and implement procedures that are essential to
an efficient, effective, and accountable acquisition process.

Agency Comments

Management concurred with this recommendation. The CFO stated he would update internal
controls, associated procedures, and revise the SOP by December 2012.

OIG Response

We consider management’s comments to be partially responsive to this recommendation. We
welcome an update to the SBA’s Standard Operating Procedures by December 2012. However,
the update will likely not address all internal control weaknesses, as the SBA’s internal control
review was not compliant with OMB Memorandum, Conducting Acquisition Assessments under
OMB Circular A-123, May 21, 2008. To adequately address this recommendation, the SBA needs
to conduct an internal control review that is compliant with this memorandum and update
internal controls to address any weaknesses identified.

Recommendation 9 – We recommend that the Chief Financial Officer conduct an internal control
review of SBA’s Denver Finance Center in compliance with OMB Circular A-123 and include the
results in the annual Agency Financial Report (AFR).

Agency Comments

Management neither concurred nor non-concurred with this recommendation. Instead, the
CFO requested that the OIG clarify the recommendation. In addition, the CFO stated that the
agency’s internal control review is of processes rather than individual offices. As such, if SBA
personnel responsible for conducting the internal control review identified a material weakness
within the any of the SBA’s processes, that weakness would be reported within the annual
Agency Financial Report.

OIG Response

We consider management’s comments to be non-responsive to this recommendation because
SBA’s internal control review was not compliant with OMB’s Memorandum for Chief Acquisition
Officers, Conducting Acquisition Assessments under OMB Circular A-123, May 21, 2008.

Recommendation 10 – We recommend that the Chief Financial Officer update payment
processing internal controls and implement procedures that are essential to an efficient,
effective, and accountable acquisition process.




                                           22
Agency Comments

Management concurred with this recommendation. The CFO stated that once the SOP revision
to acquisition process procedures is complete the Acquisition Division and Administrative
Accounting management teams would coordinate to improve internal controls and implement
procedures to improve the acquisition payment process.

OIG Response

We consider management’s comments to be responsive to this recommendation.

Recommendation 11 – We recommend that the Chief Financial Officer recover $12,073 from
iTechnologies for payments the contractor received in duplicate.

Agency Comments

Management neither concurred nor non-concurred on this recommendation. However, the CFO
stated that his office would consult with the SBA’s Office of General Counsel on the recovery of
$12,073 from iTechnologies.

OIG Response

We consider management’s comments to be responsive to the intent of this recommendation.

Recommendation 12 – We recommend that the Chief Financial Officer establish and implement
an invoice review processes that limits invoice review to contracting officers or individuals with
appropriately delegated authority.

Agency Comments

Management concurred with this recommendation. The CFO stated that the agency would
implement its new invoice review process in December 2012 along with a corresponding SOP.

OIG Response

We consider management’s comments to be responsive to this recommendation.

Recommendation 13 – We recommend that the Chief Financial Officer establish and implement
a procedure to provide payment personnel with a list of personnel authorized to approve invoices
that should be updated at least quarterly and specific to the contracts that non-contracting
officers are permitted to approve.

Agency Comments

Management partially concurred with this recommendation. According to the CFO, the SBA
completed corrective action by updating the list of certified Contracting Officer’s
Representatives (COR) maintained within the SBA’s procurement system.


                                            23
OIG Response

We consider management’s comments to be partially responsive to this recommendation.
The OCFO’s stated action of updating the certified COR list within PRISM on a monthly basis is a
good first step. However, updating the COR list without identifying which contracts the COR is
assigned to will not help payment personnel determine whether invoices were approved by
authorized personnel. Similarly, the CFO did not address the first portion of this
recommendation about establishing a policy and implementing a procedure requiring payment
personnel to validate that an authorized individual approved each invoice for payment.

Recommendation 14 – We recommend that the Chief Financial Officer establish and implement
an invoice approval procedure that includes attaching and reviewing a receiving report to each
invoice, prior to payment processing.

Agency Comments

Management concurred with this recommendation. The CFO stated that his office implemented
invoice approval procedures that include attaching a receiving report prior to the invoice prior
to payment. In addition, the CFO stated that this updated invoice approval procedure would be
included in the revised SOP.

OIG Response

We consider management’s comments to be responsive to this recommendation.

Recommendation 15 – We recommend that the Chief Financial Officer establish and implement
an automatic interface between PRISM and JAAMS to ensure that invoice payments are tied to
contract numbers instead of purchase order numbers.

Agency Comments

Management concurred with this recommendation. According to the CFO, since 2008 the OCFO
has worked to interface PRISM and JAAMS. Once the interface is complete during FY 2013,
the contract number and purchase order number will be the same number.

OIG Response

We consider management’s comments to be responsive to this recommendation.

Actions Required
Please refer to the transmittal letter for specific instructions on providing your corrective
action(s) and target dates for completion or reasons for disagreement on the final audit report.




                                           24
Appendix I: Scope and Methodology
We conducted this audit from April 2011 to May 201243 in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

The overall objective of this audit was to determine whether the SBA effectively managed information
technology (IT) contracts awarded to Isika Technologies, Inc. (iTechnologies). Specifically, we
determined whether the prime contractor and its subcontractor performed contract requirements in
accordance with the 8(a) program policies, guidance, and statutory requirements. Additionally, we
determined whether contracting personnel administered IT hardware and software contracts in
accordance with federal and SBA policies, guidance, and statutory requirements.

To achieve our audit objectives, we reviewed the SBA's iTechnologies contract files, to include each
Indefinite Delivery/Indefinite Quantity (IDIQ) contract, blanket purchase agreement (BPA), purchase
order, task order and modification that the SBA maintained. We also interviewed personnel from the
SBA's Office of the Chief Information Officer (OCIO), the Office of the Chief Financial Officer (OCFO),
iTechnologies, and iTechnologies’ subcontractor, The Look Enterprises, Inc. (TLE). Additionally, we
obtained records held by Mr. Philip Isika, president and registered agent, of iTechnologies; the Texas
Workforce Commission; Wells Fargo Bank; and Mr. James E. Selmon, president and chief executive
officer of TLE. We also reviewed pertinent Code of Federal Regulations, Federal Acquisition Regulations,
the United States Code, and the U.S. Government Accountability Office’s Principles of Federal
Appropriations Law (Red Book).

Use of Computer Processed Data

We obtained view-only access to the SBA’s accounting management system, Joint Administrative
Accounting Management System (JAAMS), in order to retrieve invoice payment data for iTechnologies
invoices processed for payment within JAAMS. We validated these invoice payment reports with
iTechnologies invoices maintained at the SBA Denver Finance Center. We determined that each invoice
corresponded with one invoice payment within the JAAMS report. Because we could not obtain access
to Automatic Clearing House (ACH) bank account information within JAAMS, we relied on personnel
from the SBA Denver Finance Center to obtain the JAAMS bank account payment reports. Similarly, we
relied on personnel from the SBA Denver Finance Center to obtain ACH bank account information for
iTechnologies from the Central Contractor Registry.

Prior Coverage

The SBA OIG issued the following two reports that focused on the planning and award, and funding of IT
hardware and software contracts awarded to iTechnologies:

            1. Report Number 11-08, February 25, 2011, SBA’s Procurement of Information Technology
               Hardware and Software Through Isika Technologies, Inc., reported that the SBA
               inadequately planned and inappropriately awarded two 8(a) sole-source IDIQ contracts and

43
     This audit was suspended from August 2011 through February 2012 due to resource constraints.

                                                              25
    a BPA to iTechnologies for the procurement of IT hardware and software. Specifically, the
    IDIQ contracts and BPA awarded to iTechnologies did not qualify as 8(a) sole-source
    procurements under the non-manufacturer rule.

2. Report Number 11-14, June 2, 2011, SBA’s Funding of Information Technology Contracts
   Awarded to Isika Technologies, Inc., reported that SBA officials improperly funded contracts
   awarded to iTechnologies for the procurement of IT hardware and software. Specifically,
   the SBA violated the bona fide needs rule relating to its FY 2009 and FY 2010 annual
   appropriations. The SBA also risked violating the Anti-Deficiency Act by obligating expired
   FY 2010 annual funds during FY 2011 with no assurance that the agency had funds available
   to cover these inappropriate expenditures.




                                          26
Appendix II: Contracts Awarded to iTechnologies
During fiscal years 2009-2011, the SBA awarded two Indefinite Delivery/Indefinite Quantity (IDIQ)
contracts, a Blanket Purchase Agreement (BPA), and six purchase order contracts to iTechnologies for
the procurement of information technology (IT) hardware and software, totaling $7,614,202, as
demonstrated in Table 4:

Table 4 Contracts Awarded to iTechnologies for the Procurement of IT Hardware and Software

        Award Date        Contract Vehicle      Contract Number           Initial       Contract Value
                                                                         Contract         Including
                                                                          Value         Modifications
      09/21/2009          IDIQ                SBAHQ-09-D-0009           $ 5,000,000        $ 4,070,480
      12/09/2009          IDIQ                SBAHQ-10-D-0001             2,000,000           2,000,000
      02/18/2010          BPA                 SBAHQ-10-A-0001             1,372,260           1,372,260
      03/11/2010          Purchase Order      SBAHQ-10-M-0111                 76,369             76,369
      03/19/2010          Purchase Order      SBAHQ-10-M-0118                 16,198             16,198
      03/19/2010          Purchase Order      SBAHQ-10-M-0119                 11,847             11,847
      04/05/2010          Purchase Order      SBAHQ-10-M-0130                 40,067             40,067
      04/10/2010          Purchase Order      SBAHQ-10-M-0135                  3,287              3,287
      01/20/2011          Purchase Order      SBAHQ-11-M-0065                 23,694             23,694
                                                         TOTAL:         $ 8,543,722        $ 7,614,202




                                                    27
Appendix III: Indefinite Delivery Indefinite Quantity Contracts
Indefinite Delivery/ Indefinite Quantity (IDIQ) contracts provide the indefinite quantity of services for a
fixed time. They are used when the General Services Administration (GSA) cannot determine, above a
specified minimum, the precise quantities of supplies or services that the government will require
during the contract period. They help streamline the contract process and speed service delivery.
These contracts are most often used for service contracts and architect-engineering services. Awards
are usually for base years and option years. The government places delivery orders (for supplies) or task
orders (for services) against a basic contract for individual requirements. Minimum and maximum
quantity limits are specified in the basic contract as either number of units (for supplies) or as dollar
values (for services).

According to the FAR, there are three types of indefinite-delivery contracts: definite-quantity contracts,
requirements contracts, and indefinite-quantity contracts. Further, “The appropriate type of indefinite-
delivery contract may be used to acquire supplies and/or services when the exact times and/or exact
quantities of future deliveries are not known at the time of contract award.44” Pursuant to
10 U.S.C. 2304d and section 303K of the Federal Property and Administrative Services Act of 1949,
requirements contracts and indefinite-quantity contracts are also known as delivery-order contracts or
task-order contracts.




44
     FAR Subpart 16.501-2(a), Indefinite-Delivery Contracts

                                                              28
Appendix IV: Agency Comments




                                   U.S. SMALL BUSINESS ADMINISTRATION
                                                WASHINGTON, D.C. 20416




TO:            John K. Needham
               Assistant Inspector General for Auditing, Office of Inspector General

FROM:          Jonathan Carver
               Chief Financial Officer, Office of the Chief Financial Officer

DATE:          November 5, 2012

SUBJECT:       OCFO’s Response to OIG’s Draft Advisory Memorandum on SBA Mismanaged
               Certain 8(a) Information Technology Contracts dated September 28, 2012


OCFO concurs with the findings and recommendations found in the Draft Advisory Report
entitled “The SBA Mismanaged Certain 8(a) Information Technology Contracts.” OCFO
appreciates the opportunity to review this draft advisory opinion on the mismanagement of the
ITechnologies 8(a) contracts. OCFO would like to highlight that this contract mismanagement
occurred prior to the transition of the acquisition function to OCFO. Since the transition of the
acquisition function to OCFO, the CFO and the Acquisition Division management have
attempted to not only resolve the significant issues related to the award of the contracts but to
learn from the past errors and improve the acquisition process at the SBA from award to close-
out.

The OCFO has the following specific comments on the draft report:

        P. 3 of the Report, “Review of Internal Controls” paragraph, 2nd to last sentence in
        this paragraph that states “However, SBA management has not conducted an
        internal control review of its acquisition function since fiscal year (FY) 2007.”: This
        sentence is incorrect. The SBA’s Office of Internal Controls conducted an internal
        control review of the acquisition function in May 2012. The Office of Internal Controls
        presented its assessment to the acquisition management team in October 2012.




                                               29
   P. 12 of the Report, 1st paragraph, 2nd to last sentence that states “Further, the
   SBA’s procurement and accounting systems did not fully interface, which exposed
   the SBA to vulnerabilities to making improper payments.”: While OCFO does not
   disagree with this statement, OCFO would like to note that as stated in the OCFO
   comments to the OIG Proposed Management Challenge 11 that the procurement and
   accounting systems are currently interfaced with one exception, the commitment to
   obligation phase is a manual process.

   P. 15, 2nd full paragraph: OCFO would like to note that as stated in the OCFO
   comments to the OIG Proposed Management Challenge 11 that the procurement and
   accounting systems are currently interfaced with one exception, the commitment to
   obligation phase is a manual process. OCFO would also like to include that the report
   does not state how automating and interfacing the systems could specifically reduce the
   number of improper payments. Ensuring that the contract data is complete would be a
   more accurate diagnosis of reducing improper payments than the system interface.

   P. 15, 3rd bullet at the top of the page & 2nd full paragraph, 2nd to last sentence
   which states “Similarly, the SBA potentially violated the Antideficiency Act because
   the contracting officer may not have obligated the funds necessary to cover the cost
   of the foods and services not placed on the contract.” : OCFO continues to disagree
   with the OIG’s assessment of the potential ADA violation. OCFO expressed this
   disagreement in in response to OIG Report 11-14, Rec. 4. Furthermore, mentioning the
   potential ADA violation in this report is redundant and out of scope since the OIG
   already issued a report on this assertion and OCFO appropriately responded.

In addition to the draft report comments, OCFO submits the following comments on
the recommendations offered in the draft report:

OIG Recommendations to CFO in BOLD

1) Take action to complete debarment proceedings for ITechnologies to prohibit future
   contracting with any agency of the Executive Branch of the United States
   Government.

   This matter is under review.

2) Initiate debarment proceedings for TLE and its officials to prohibit future
   contracting with any agency of the Executive Branch of the United States
   Government.

   This matter is under review.



                                         30
3) Establish and Implement a procedure that aligns with the FAR to require
   contracting officers to determine whether prospective contractors are "responsible"
   prior to awarding a contract:

   The OCFO concurs with the OIG on the point that contracting officers should follow the
   FAR in determining whether prospective contractors are “responsible” prior to awarding
   a contract (and that if SBA determines a small business apparent successful offeror to be
   nonresponsible, it will refer the matter to SBA for a Certificate of Competency).
   However, the contracting officers associated with the matter discussed in this report are
   no longer employed at the SBA. These actions occurred prior to the transition of the
   acquisition function to OCFO. While OCFO concurs that the agency’s contracting
   officers should follow the FAR in determining whether a prospective contractor is
   responsible, the OIG has not indicated that SBA is currently not following the FAR in
   making this determination. Additionally, SBA is working on the Acquisition Division
   SOP Re-write and Contracting Officer’s desk manual, which will establish and
   implement procedures in determining whether prospective contractors are “responsible”
   prior to award.

4) Demonstrate that SBA contracting personnel are proficient at conducting price
   analyses used to establish whether proposed prices are fair and reasonable and in
   accordance with FAR requirements.

   The OCFO concurs with the OIG on the recommendation that contracting personnel
   should conduct price analyses to establish whether proposed prices are fair and
   reasonable and according to FAR requirements. However, the contracting officers
   associated with the matter discussed in this report are no longer employed at the SBA.
   These actions occurred prior to the transition of the acquisition function to OCFO. While
   OCFO concurs that the agency’s contracting officers should follow the FAR in
   determining whether proposed prices are fair and reasonable, the OIG has not indicated
   that SBA is currently not following the FAR in making this determination.

5) Require contracting personnel to maintain all records used to establish a fair and
   reasonable price, consistent with FAR requirements.

   OCFO would like the OIG to clarify this recommendation. OCFO would like to reiterate
   that the contracting officers and management associated with the matter discussed in this
   report are no longer employed at the SBA’s Acquisition Division. These actions
   occurred prior to the transition of the acquisition function to OCFO. There is no
   indication that the current contracting personnel and management do not properly
   establish a fair and reasonable price. For example, SBA follows FAR procedures when
   awarding sole source 8(a) contracts. According to the FAR 19.807, contracting officers

                                          31
   estimate the fair market price of the work to be performed by the 8(a) contractor and may
   use cost or price analysis and consider commercial prices for similar products and
   services, available in-house cost estimates, data (including certified cost or pricing data)
   and data obtained from any other Government agency when making this determination.
   The FAR defines “fair market price” with regard to the small business program to mean
   “a price based on reasonable costs under normal competitive conditions and not on
   lowest possible cost (see 19.202-6).” FAR § 19.001. Thus, contrary to the OIG’s
   assertion, competition is not necessarily required to ensure a contract award is for a fair
   and reasonable price; agencies can and do issue 8(a) sole source awards at a fair market
   price.

6) Establish and implement a procedure to verify routinely that contracting officers
   are documenting price analyses used to establish price reasonableness.

   FAR 4.803(a)(17) states that data and information related to the contracting officer’s
   determination of a fair and reasonable price is a record normally contained in a contract
   file. The FAR does not necessarily require detailed narratives or “screen shots” to
   support a price analysis. However, SBA is working on the Acquisition Division SOP Re-
   write and Contracting Officer’s desk manual, and will set forth guidance with respect to
   the data and information that should be in the contract file to support the contracting
   officer’s determination.

7) Conduct an internal control review of SBA's acquisition function in compliance with
   OMB Circular A-123 and OMB Memorandum, Conducting Acquisition
   Assessments under OMB Circular A-123.

   OCFO agrees with this recommendation and has already conducted the A-123 review of
   the acquisition function in May 2012. The Office of Internal Controls presented the
   results of the A-123 review to the Acquisition Division in October 2012.

8) Based upon the SBA's internal control review, update internal controls and
   implement procedures that are essential to an efficient, effective, and accountable
   acquisition process.

   OCFO concurs with this recommendation and will begin the implementation process of
   these controls and procedures and SOP re-write is scheduled to be completed by
   December 2012.




                                           32
9) Conduct an internal control review of SBA's Denver Finance Center in compliance
   with OMB Circular A-123 and include the results in the annual Agency Financial
   Report (AFR).

   OCFO would like this recommendation clarified. Appendix A of OMB Circular A-123
   prescribes the review of processes, not offices such as SBA’s DFC. Furthermore, the
   Office of Internal Controls already reviews processes (i.e. cash receipting, cash
   disbursement, travel, financial reporting, procurement, etc.) that occur at DFC, in
   compliance with OMB Circular A-123, Appendix A. If the Office of Internal Controls
   finds materials weaknesses from these process reviews, then the Office of Internal
   Controls would include these material weaknesses in the AFR’s Assurance Statement.

10) Update payment processing internal controls and implement procedures that are
    essential to an efficient, effective, and accountable acquisition process.

   OCFO concurs with this recommendation. Once the acquisition process procedures are
   in place from the SOP re-write, the Acquisition Division management and the
   Administrative Accounting management will coordinate to improve internal controls and
   implement procedures to improve the acquisition payment process.

11) Recover $12,073 from ITechnologies for payments the contractor received in
    duplicate.

   OCFO will consult OGC on this recovery action.

12) Establish and implement an invoice review processes that limits invoice review to
    contracting officers or individuals with appropriately delegated authority.

   OCFO concurs with this recommendation and the invoice review process will be
   implemented with the completion of the SOP re-write in December 2012.

13) Establish and implement a procedure to provide payment personnel with a list of
    personnel authorized to approve invoices that should be updated at least quarterly
    and specific to the contracts that non-contracting officers are permitted to approve.

   OCFO partially concurs with this recommendation. OCFO has accomplished this
   recommendation on the acquisitions side by monthly updates of the certified COR lists in
   PRISM.




                                          33
14) Establish and implement an invoice approval procedure that includes attaching and
    reviewing a receiving report to each invoice, prior to payment processing.

   OCFO concurs with this recommendation and has already implemented invoice approval
   procedures that include attaching a receiving report prior to payment process. This
   invoice approval procedure will be included in the SOP re-write as well.

15) Establish and implement an automatic interface between PRISM and JAAMS to
    ensure that invoice payments are tied to contract numbers instead of purchase order
    numbers: OCFO agrees with this recommendation.

   OCFO has partially interfaced PRISM and JAAMS and began the interface production in
   2008. When OCFO completes the interface, the contract number and purchase order
   number will be the same number. OCFO anticipates completing the interface within
   FY2013.




                                        34
